CERTIFICATE OF SERVICE

I, the undersigned say:

Ls

Nr

Ww

That I am over eighteen (18) years of age, a resident of the County of
Sonoma, State of California, and not a party to the within action.

That my business address is 2751 4th Street, PMB #136, Santa Rosa,
CA 95405.

That I am the attorney appointed under the Criminal Justice Act to
represent ROSS COLBY for purposes of filing a writ of certiorari.

That I served the within Petition for Writ of Certiorari and Motion

for Leave to Proceed In Forma Pauperis on counsel for the

respondent and related parties by enclosing a copy thereof in an
envelope, first class postage prepaid, and depositing the same in the
United States mail at Santa Rosa, California on May 25, 2021.
addressed to:

Solicitor General of the United States Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530-0001

5,

That all parties required to be served have been served.

I certify that the foregoing is true and correct.

Executed on this 25th day of May 2021, at Santa Rosa, California.

Dena Marie Youyig
